   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
        FY 2008 AND FY 2007
 Saint Lawrence Seaway Development Corporation

         Report Number: QC-2009-004
        Date Issued: November 07, 2008
           U.S. Department of
                                                       Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review of                          Date:    November 07, 2008
           Audited Financial Statements for
           FY 2008 and FY 2007, Saint Lawrence Seaway
           Development Corporation
           Report Number: QC-2009-004

  From:    Rebecca C. Leng                                               Reply to
           Assistant Inspector General for Financial and                 Attn of:   JA-20
            Information Technology Audits

    To:    Saint Lawrence Seaway Development
           Corporation Administrator

           The audit of the Saint Lawrence Seaway Development Corporation’s Financial
           Statements as of and for the fiscal year ended September 30, 2008, was completed
           by Chiampou Travis Besaw & Kershner LLP, of Amherst, New York (see
           Attachment). We performed a quality control review of their audit work to ensure
           that it complied with applicable standards. These standards include the Chief
           Financial Officers Act; Government Corporation Control Act; Generally Accepted
           Government Auditing Standards; and Office of Management and Budget Bulletin
           07-04, “Audit Requirements for Federal Financial Statements,” as amended.

           Chiampou Travis Besaw & Kershner LLP, concluded that the financial statements
           present fairly, in all material respects, the financial position of the Saint Lawrence
           Seaway Development Corporation as of September 30, 2008, and the results of its
           operations and cash flows for the year then ended, in conformity with accounting
           principles generally accepted in the United States. The report did not include any
           reportable internal control weaknesses or material noncompliance issues with
           accounting principles, laws, or regulations. Last year’s Saint Lawrence Seaway
           Development Corporation financial statements were audited by other auditors,
           who also expressed an unqualified opinion on those statements. 1



           1
               OIG Quality Control Review of Audited Financial Statements for FY 2007 and FY 2006, Saint
               Lawrence Seaway Development Corporation, Report Number QC-2008-007, November 9, 2007.
                                                                             2


Our quality control review disclosed no instances in which Chiampou Travis
Besaw & Kershner LLP, did not comply with applicable auditing standards.
Therefore, we are not making any recommendations, and a response to this report
is not required.

We appreciate the cooperation and assistance of representatives of the Saint
Lawrence Seaway Development Corporation and Chiampou Travis Besaw &
Kershner LLP. If we can answer any questions or be of any further assistance,
please call me at (202) 366-1407 or Earl Hedges, Program Director, at
(410) 962-1729.

Attachment
                                      #
